E-Mail Address: 1115 H Street, N.E.
Est 4 briefs@wilsonepes.com Washington, D.C, 20002

WT Web Site: Tel (202) 789-0096

www.wilsonepes.com Fax (202) 842-4896

No, 20-1693

ERICK ALLEN OSBY,
Petitioner,

Vv.

UNITED STATES OF AMERICA,
Respondent.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on June 30, 2021, three (3) copies of the BRIEF OF AMICI CURIAE
AMERICANS FOR PROSPERITY FOUNDATION, THE NATIONAL ASSOCIATION OF
CRIMINAL DEFENSE LAWYERS, DREAM CORPS JUSTICE, AND THE R STREET
INSTITUTE IN SUPPORT OF PETITIONER in the above-captioned case were served, as
required by U.S. Supreme Court Rule 29.5(c), on the following:

CAROLINE SWIFT PLATT ELIZABETH B. PRELOGAR
OFFICE OF THE FEDERAL PUBLIC DEFENDER Acting Solicitor General
1650 King Street, Suite 500 UNITED STATES DEPARTMENT OF JUSTICE
Alexandria, VA 22314 950 Pennsylvania Avenue, NW
(703) 600-0810 Washington, DC 20530-0001
Counsel for Petitioner (202) 514-2217
Counsel for Respondent

The following email addresses have also been served electronically:

caroline_platt@fd.org
SupremeCtBriefs@USDOJ.gov

mpepson@afphq.org b/

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
1115 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 30th day of June 2021.

 

Notary PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
